                           U.S. Department of the Interior
                               Office of Inspector General




Improvements Needed in Developing and
Reporting on GPRA Performance
Indicators:

Protect the Environment and
Preserve our Nation’s Natural and Cultural Resources




                        Cultural Property
                                              Fuel Treatment


    Restoration




Report No. S-IN-MOA-0088-2002                March 2004
                   United States Department of the Interior

                                    Office of Inspector General
                                          Eastern Region Audits
                                            381 Elden Street
                                                Suite 1100
                                         Herndon, Virginia 20170




                                                                                  March 31, 2004
Memorandum

To:            Assistant Secretary, Policy, Management and Budget

From:          William J. Dolan, Jr.
               Regional Audit Manager, Eastern Region

Subject:       Final Audit Report on Improvements Needed in Developing and Reporting on
               GPRA Performance Indicators, Department of the Interior
               (Report No. S-IN-MOA-0088-2002)

        This report presents the results of our audit of the Department of the Interior (DOI)
reporting of its fiscal year 2001 Government Performance and Results Act (GPRA) strategic goal
1, which relates to protecting the environment and preserving our nation’s natural and cultural
resources. This strategic goal reports on DOI’s efforts to protect the health of public lands,
maintain healthy natural systems, protect and recover imperiled species, and protect and restore
cultural resources.

       We concluded that improvements were needed to DOI’s development of and reporting on
GPRA performance indicators. In the March 16, 2004 response to the draft report, the Assistant
Secretary for Policy, Management and Budget concurred with the report’s two
recommendations. Based on the corrective actions discussed in the response and additional
information subsequently provided, we consider the recommendations to be resolved and
implemented, and no further action by the Department is required.

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C. App. 3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented.

        We appreciate the cooperation we received from DOI and bureau managers and staff at
all locations. If you have any questions regarding this report, please call me at (703) 487-8011.
                    Executive Summary
Improvements Needed in Developing and Reporting on
GPRA Performance Indicators

                    The 1993 enactment of the Government Performance and
Background and      Results Act (GPRA) requires each federal department and
                    agency to prepare annual performance reports comparing
Objectives          planned accomplishments for mission-related activities with
                    the results actually achieved. The Department of the Interior
                    (DOI) prepared the fiscal year 2001 Departmental Overview
                    based on its Strategic Plan for fiscal year 2000 to fiscal year
                    2005. The overview presents selected bureau and office goals
                    and measures that achieve DOI’s goals. Strategic goal 1,
                    protect the environment and preserve our nation’s natural and
                    cultural resources, recognizes that the interdependence
                    between people and their environment requires healthy lands,
                    waters, and other resources.

                    Our objective was to determine whether DOI (1) developed
                    appropriate performance indicators for strategic goal 1 and its
                    related performance measures and (2) accurately reported
                    performance data and related information for these indicators.

                    We concluded that DOI should revise several of its
Results in Brief    performance indicators and measures to improve performance
                    information provided to DOI managers, Congress, and the
                    Office of Management and Budget. In addition, DOI staff and
                    management should ensure that the data used to report DOI
                    performance are accurate. During our review, we noted that
                    DOI is revising its strategic planning model and instituting a
                    new data verification policy. These actions address many of
                    the issues disclosed by our audit.

                    DOI concurred with the report’s two recommendations and
Agency Response     has already taken corrective actions to implement them
and Office of       (Appendix 4). Based on the response and other information
Inspector General   subsequently provided, we consider the recommendations to
                    be resolved and implemented, and no further action by the
Reply               Department is required.




                                   i
This Page Intentionally Left Blank




                ii
      Table of Contents

                                                                                           Page

Introduction ........................................................................         1
     Background ........................................................................      1
     Objectives and Scope .........................................................           2

Results of Audit .................................................................            3

Performance Indicators Should Be Revised ........................                             3
   Basis for Determining Appropriate Indicators ...................                           3
   Public Lands Restored .......................................................              4
   Damaged Lands and Resources Restored ..........................                            5
   South Florida Natural Systems Restored ...........................                         5
   Species Protected ...............................................................          6
   Cultural Properties Restored ..............................................                6
   Weaknesses in DOI Strategic Planning Processes .............                               7

Recommendation ..............................................................                 9

Agency Response and Office of
Inspector General Reply ........................................................              9

Improvements Needed for Accurate Reporting ..................                                10
  Basis for Determining Accurate Indicators ........................                         10
  Public Lands Restored .......................................................              11
  Natural Processes Restored Through Fire Management ....                                    12
  Cultural Properties Restored ..............................................                12
  Report Narrative .................................................................         14
  Data Were Not Systematically Verified ............................                         14
  New DOI Data Verification Policy ....................................                      15
  Improving the Usefulness of the GPRA Report to
   Decision Makers ..............................................................            15

Recommendation ..............................................................                16

Agency Response and Office of
Inspector General Reply ........................................................             16




                        iii
Appendices                                                                               Page

1.   Audit Scope and Methodology ..........................................                17
2.   Audit Sites Visited .............................................................     19
3.   Prior Audit Coverage .........................................................        21
4.   Agency Response to Draft Report .....................................                 23
5.   Status of Audit Recommendations......................................                 25

Tables

1.   Strategic Goal 1 Performance Components .......................                        2
2.   Assessment of Performance Indicators...............................                    4
3.   Accuracy of Performance Data ..........................................               10
4.   NPS Historic Structures Data .............................................            13

Abbreviations

BIA ........................................................... Bureau of Indian Affairs
BLM .................................................. Bureau of Land Management
BOR ........................................................... Bureau of Reclamation
CLI ................................................. Cultural Landscapes Inventory
DOI ....................................................... Department of the Interior
FWS ............................................... U.S. Fish and Wildlife Service
GAO ..................................................... General Accounting Office
GPRA ........................... Government Performance and Results Act
LCS ..................................................... List of Classified Structures
NAWCA .................. North American Wetlands Conservation Act
NPS .............................................................. National Park Service
NRDAR ... Natural Resource Damage Assessment and Restoration
OIG ..................................................... Office of Inspector General
OMB ........................................ Office of Management and Budget
OSM ...... Office of Surface Mining Reclamation and Enforcement
PMDS ............................... Performance Management Data System
STA ................................................... Storm Water Treatment Area




                        iv
Cover Photographs Credits

Restoration: U.S. Fish and Wildlife Service
FWS employee planting Cypress tree helps habitat restoration at
Bayou Sauvage NWR, Louisiana, on October 15, 2002.
Photograph by John and Karen Hollingsworth

Cultural property: Women’s Rights National Historic Park
Exterior restoration of the M’Clintock House, Waterloo, New
York.
Photographs courtesy of the Women’s Right National Historical
Park

Fuel treatment: National Office of Fire and Aviation Bureau of
Land Management, National Interagency Fire Center
Trinidad Complex fire at Weston, Colorado, on June 6, 2002.
Photograph by Kari K. Brown




                 v
This Page Intentionally Left Blank




                vi
                  Introduction


Background   Congress enacted the 1993 Government Performance and
             Results Act (GPRA) to “help Federal managers improve
             service delivery, by requiring that they plan for meeting
             program objectives and by providing them with information
             about program results and service quality.” GPRA holds
             federal departments accountable for achieving program results
             by requiring annual performance plans with specific,
             measurable goals and annual performance reports, which
             compare actual performance with these goals. The Office of
             Management and Budget (OMB) Circular No. A-11 also
             provides guidance on GPRA implementation.

             The Department of the Interior’s (DOI or the Department)
             eight bureaus prepared individual fiscal year 2001 annual
             performance reports. A Department-level summary or
             “overview” of bureau and departmental office efforts also
             provided a Departmentwide perspective. DOI’s performance
             report for fiscal year 2001 included six GPRA strategic goals.

             DOI GPRA strategic goal 1 addresses the protection of the
             environment and the preservation of our nation’s natural and
             cultural resources. DOI established 13 performance indicators
             to evaluate its success in meeting the 7 measures for goal 1
             (Table 1).




                              1
                      Table 1 - Strategic Goal 1 Performance Components
                  Annual Performance Measure               Performance Indicators
                 1. Public Lands Restored           1. Acres of mined lands, refuges,
                                                    park lands, and forests restored.
                 2. Damaged Lands and Resources     2. Cumulative number of restoration
                 Restored                           projects.
                                                    3. Cumulative amount of settlement
                                                    recoveries deposited into the
                                                    Restoration Fund.
                 3. South Florida Natural Systems   4. Cumulative acres of Storm Water
                 Restored                           Treatment Areas constructed.
                                                    5. Acres acquired for habitat
                                                    protection.
                 4. California Desert Protection    6. Establish monitoring protocols
                 and Restoration                    and assessments of baseline
                                                    populations.
                 5. Natural Processes Restored      7. Acres treated to restore natural
                 Through Fire Management            processes.
                 6. Species Protected               8. Number of species populations
                                                    listed a decade ago or more are
                                                    improving or stable.
                                                    9. Number of species delisted due to
                                                    recovery.
                                                    10. Number of species in park areas
                                                    showing improved status.
                                                    11. Number of species in park areas
                                                    showing stable status.
                 7. Cultural Properties (Sites)     12. Number of historic structures in
                 Restored                           good condition.
                                                    13. Number of cultural landscapes in
                                                    good condition.


Objectives and   The objective of our audit was to determine whether DOI
                 (1) developed appropriate annual performance indicators for
Scope            strategic goal 1 and its related performance measures and
                 (2) accurately reported performance data and related
                 information for these indicators. We selected GPRA strategic
                 goal 1 because it included performance indicators for multiple
                 DOI offices and bureaus. To determine the appropriateness of
                 the performance indicators, we reviewed all 13 indicators for
                 general compliance with GPRA and OMB requirements. In
                 addition, we tested the performance data and narrative
                 information for four indicators (nos. 1, 6, 7, and 12) to
                 determine reporting accuracy. We discuss the results of our
                 audit in two sections accordingly. The Appendices contain
                 detailed scope and methodology information, sites visited, and
                 prior audit coverage.




                                     2
                                          Results of Audit


Performance                              The fiscal year 2001 indicators did not provide sufficient
                                         useful information for decision-making by DOI managers,
Indicators Should Be                     Congress, or OMB. Nine of the 13 performance indicators
Revised                                  were not appropriate or were not complete. That is, they did
                                         not include all relevant bureaus, did not have annual targets,
                                         were not under the direct control of federal managers, or were
                                         not outcome-oriented. We attributed this inadequacy to
                                         weaknesses in the Department’s strategic planning process.

                                         DOI managers have recognized the need to improve indicators
                                         to achieve greater integration of purpose and function
                                         throughout the Department and to provide a GPRA document
                                         that represents the entire Department. The Department is in
                                         the process of revising its strategic and performance plans to
                                         improve its reporting of Departmentwide accomplishments.

Basis for Determining                    To determine whether the Department developed appropriate
Appropriate Indicators                   annual performance indicators, we reviewed all 13 indicators
                                         for general compliance with GPRA and OMB requirements.
                                         Specifically, we assessed whether they were:

                                             ¾    Objective, quantifiable, and measurable;
                                             ¾    Clear, meaningful1, reasonable, and relevant;
                                             ¾    Related to the strategic goal;
                                             ¾    Representative of Departmental accomplishments;
                                             ¾    Outcome-oriented; and
                                             ¾    Subject to sufficient Departmental control and
                                                  oversight.

                                         We found that 9 of the 13 performance indicators reviewed did
                                         not meet these criteria as identified in Table 2.




1
 Our analysis of “meaningful” included assessing whether the departmental indicator included all bureaus that
appeared to have significant related activity.

                                                        3
                                 Table 2 - Assessment of Performance Indicators
    Performance Measure                            Performance Indicators                 OIG Assessment
1. Public Lands Restored             1. Acres of mined lands, refuges, park lands, and    Not Representative
                                     forests restored.
2. Damaged Lands and                 2. Cumulative number of restoration projects.          Not Appropriate
Resources Restored
                                     3. Cumulative amount of settlement recoveries          Not Appropriate
                                     deposited into the Restoration Fund.
3. South Florida Natural             4. Cumulative acres of Storm Water Treatment           Not Appropriate
Systems Restored                     Areas constructed.
                                     5. Acres acquired for habitat protection.              Not Appropriate
4. California Desert Protection      6. Establish monitoring protocols and assessments       Appropriate
and Restoration                      of baseline populations.
5. Natural Processes Restored        7. Acres treated to restore natural processes.           Appropriate
Through Fire Management
6. Species Protected                 8. Number of species populations listed a decade         Appropriate
                                     ago or more are improving or stable.
                                     9. Number of species delisted due to recovery.          Appropriate
                                     10. Number of species in park areas showing            Not Appropriate
                                     improved status.
                                     11. Number of species in park areas showing            Not Appropriate
                                     stable status.
7. Cultural Properties (Sites)       12. Number of historic structures in good            Not Representative
Restored                             condition.
                                     13. Number of cultural landscapes in good              Not Appropriate
                                     condition.


Public Lands                         We determined that the indicator for the public lands restored
Restored                             performance measure was not representative of the Department’s
                                     accomplishments. The objective of the restoration of public lands
                                     measure is to restore lands managed by, or under the regulatory
                                     jurisdiction of, DOI from previous uses such as mining, farming,
                                     timber harvesting, and other land disturbing activities. The
                                     Department utilizes the number of acres restored from four bureaus
                                     as the performance indicator for this measure:

                                         ¾ Office of Surface Mining Reclamation and Enforcement
                                           (OSM) reclaimed abandoned mine lands2
                                         ¾ U.S. Fish and Wildlife Service (FWS) restored acres in the
                                           National Wildlife Refuge System
                                         ¾ National Park Service (NPS) restored disturbed lands in
                                           National Parks
                                         ¾ Bureau of Indian Affairs (BIA) reforested acres through tree
                                           planting and thinning

                                     This indicator was not representative because it included data not
                                     related to this goal and excluded data from bureaus that did perform
                                     restoration. For example, acreage reported by BIA consisted of

2
    We did not audit the OSM indicator because of an on-going OSM audit being conducted by the OIG.

                                                           4
                                  forest lands prepared for commercial harvesting that would have
                                  been more appropriately reported under a DOI goal related to
                                  resource use, rather than resource protection. Concurrently, the
                                  acres restored by Bureau of Land Management (BLM) and Bureau
                                  of Reclamation (BOR) were not reported. BLM manages 264
                                  million acres of public lands and performs activities such as
                                  watershed restoration, remediation of abandoned mine sites, forest
                                  restoration and habitat improvement. BOR restored wetlands and
                                  riparian habitats in 2001. Without the BLM and BOR acreage this
                                  indicator does not include all of DOI’s restoration accomplishments.

Damaged Lands and                 We determined that the two performance indicators for the damaged
Resources Restored                lands and resources restored performance measure were not
                                  outcome-oriented (not a good characteristic of what was actually
                                  accomplished) and were not subject to DOI control. The
                                  Department uses the Natural Resource Damage Assessment and
                                  Restoration (NRDAR) Program to assess damages to natural
                                  resources resulting from spills or hazardous substance releases,
                                  obtain settlements from responsible parties, and provide recovered
                                  monies to natural resource trustees to fund repairs.

                                  The number of projects and the amount of settlement recoveries
                                  deposited into the Restoration Fund are output (an activity
                                  performed) and not outcome indicators (measures of how well a
                                  program performed). The NRDAR manager agreed that the amount
                                  of resources restored would be a more appropriate indicator because
                                  it is outcome-oriented. Prior to our audit, the manager requested
                                  development of a database that would collect this data.

                                  Secondly, DOI managers had limited control over the
                                  accomplishments of these indicators. The Department cannot
                                  initiate or complete restoration projects through NRDAR, and
                                  project funding is dependent upon court awards (settlements) and
                                  not annual appropriations. For settlement recovery, individual DOI
                                  bureaus determine the amount of damage to the resource and seek
                                  compensation from responsible parties.

South Florida                     We determined that the South Florida restoration indicators were not
Natural Systems                   appropriate3 because DOI managers did not set a target for fiscal
                                  year 2001 and lacked oversight authority for the project. The
Restored
                                  Department reported on the cumulative acres of storm water
                                  treatment areas (STA)4 constructed and acres of land acquired for
                                  habitat protection for the South Florida natural systems restored
                                  performance measure. Through the South Florida Ecosystem
3
  According to DOI managers, the new performance plan will not include program specific indicators such as the
South Florida Ecosystem Restoration Program.
4
  STA’s are man-made wetlands constructed to improve water quality by treating urban and agricultural run off
before it is discharged to the natural areas.

                                                        5
                                     Restoration Program, the DOI seeks to restore, preserve, and protect
                                     the South Florida ecosystem while maintaining a sustainable South
                                     Florida economy.

                                     DOI managers stated that they did not set a target for the number of
                                     acres of construction or acquisition for fiscal year 2001 due to the
                                     long-term nature of the South Florida restoration project. In
                                     addition, they wanted to coordinate GPRA reporting with the status
                                     report provided to Congress every 2 years. However, GPRA
                                     requires annual reporting. Another DOI program, Endangered
                                     Species, has similar reporting requirements and long-term
                                     objectives, but still complied with the annual requirement.

                                     Also, DOI managers were not directly responsible for the
                                     management of the project. Although the DOI leads the South
                                     Florida Ecosystem Restoration Task Force, it does not have any
                                     oversight or project authority. The State of Florida carried out much
                                     of the STA construction and land acquisition, with the State
                                     estimated to contribute over half of the overall budget for the
                                     restoration. The Army Corps of Engineers has the largest federal
                                     role in the project. The Task Force acts as a facilitator between
                                     federal, state, and local agencies and other stakeholders involved in
                                     this $14.8 billion project.

Species Protected                    We determined that two of the four indicators for the species
                                     protected performance measure are duplicative and should not be
                                     reported at the Department level. Under the authority of the
                                     Endangered Species Act of 1973, the Department is responsible for
                                     the protection and recovery of species listed as threatened or
                                     endangered. The Department’s GPRA Report contained four
                                     endangered species indicators: two for NPS and two for FWS.5

                                     The NPS indicators for stable and improved endangered species
                                     within park boundaries duplicate the FWS data, which already
                                     includes NPS data in the nationwide total. While an NPS
                                     endangered species indicator may be appropriate in the NPS GPRA
                                     Report, it is not appropriate in the DOI Report.


Cultural Properties                  We determined that the indicators for the cultural properties restored
Restored                             performance measure were not representative of the Department’s
                                     accomplishments. In 2001, the Department reported on two
                                     performance indicators for NPS cultural properties: the number of
                                     historic structures in good condition and the number of cultural
                                     landscapes in good condition.


5
    In Table 1, indicators 8 and 9 pertain to FWS, and indicators 10 and 11 pertain to NPS.

                                                            6
                     Both the historic structures and cultural landscapes indicators were
                     not representative because they did not include the cultural
                     properties under the management of four other DOI bureaus - BLM,
                     FWS, BOR, and BIA.

                     For example, BLM has estimated that it is responsible for protecting
                     and restoring over 4 million archeological and historical properties.
                     Although FWS, BOR, and BIA have considerably fewer properties,
                     they all have cultural properties listed on or eligible for the National
                     Register of Historic Places.

                     Department officials stated that the full universe of cultural
                     properties from all bureaus was not used because baseline data was
                     not available for all bureaus. However, at a minimum, the role of
                     BLM, FWS, BOR, and BIA in protecting cultural properties should
                     have been recognized in the DOI GPRA Report. Also, an indicator
                     to develop cultural property baselines for the other bureaus should
                     have been included in the Department’s performance plan.

                     In addition, the cultural landscapes indicator did not provide
                     relevant information. Although the historic structures indicator did
                     compare structures in good condition to the total universe, the
                     cultural landscapes in good condition were not measured against all
                     NPS landscapes in the inventory. Including the total universe would
                     provide a more accurate picture of the overall condition of cultural
                     landscapes under DOI protection. The DOI response indicated that
                     this correction has been made.

                     We also noted that the objective for the cultural properties measure
                     included a reference to archaeological sites in addition to historic
                     structures and cultural landscapes. However, DOI did not include
                     an indicator for archaeological sites in its GPRA Report. For
                     consistency, either the objective or the indicators need to be revised.

Weaknesses in DOI    We believe that weaknesses in DOI’s strategic planning processes
Strategic Planning   contributed to inappropriate GPRA performance indicators. In fiscal
                     year 2001, the DOI GPRA Report did not provide a comprehensive
Processes
                     picture of the Department’s accomplishments. The performance
                     data in the Report was extracted from the performance reports of its
                     bureaus, offices, and departmental programs. The bureaus often did
                     not have comparable GPRA performance indicators, although they
                     performed activities that were similar in nature or supported the
                     same departmental strategic goal. This occurred because each
                     bureau and office developed its own strategic plans and reports, and
                     the Department did not adequately coordinate performance planning
                     and reporting between bureaus. As a result, the Department did not
                     have the relevant data necessary to fully report on its overall
                     accomplishments.

                                        7
The Department is currently revising its Strategic and Performance
Plans and processes. The new strategic planning model could
potentially resolve some of these weaknesses because it is intended
to:

    ¾ Clearly define performance measures;
    ¾ Identify all contributors to performance measures and
      establish common measures to the extent possible;
    ¾ Provide guidance for ensuring that data collected is valid
      and verifiable;
    ¾ Require that goals and measures be as outcome oriented as
      possible;
    ¾ Minimize the use of performance information over which
      managers have limited control;
    ¾ Ensure that indicators are appropriately placed in each
      mission area, are not duplicative or overlapping, and that
      individual programs are adequately represented; and
    ¾ Provide for both long-term goal and target setting and the
      use of incremental performance targets to establish annual
      performance expectations.




                  8
                         Recommendation

                       We recommend that the Department revise GPRA indicators for
                       the strategic goal 1 as needed to ensure that all indicators:

                            1. Represent the Department’s accomplishments and
                               include accomplishments from all bureaus and offices
                               with activity relating to the indicators,

                            2. Are outcome-oriented,

                            3. Are subject to oversight and control of DOI managers,

                            4. Include annual targets,

                            5. Eliminate duplicate data, and

                            6. Provide relevant information.

Agency Response     DOI concurred with this recommendation. The new Departmental
                    Strategic Plan was completed and issued in September 2003. The
and Office of       Department’s response to the draft report stated that that the new
Inspector General   plan’s highly integrated approach and outcome-orientation will
Reply               resolve the weaknesses in the old plan identified by this report. We
                    have reviewed the new Strategic Plan and additional information
                    provided related to corrective actions taken, and we agree that the
                    new goals and measures for resource protection are more
                    appropriate, representative, relevant, and outcome-oriented. We
                    consider this recommendation implemented, and no further action is
                    required by the Department




                                      9
Improvements          Data reported in the fiscal year 2001 GPRA Report were
                      inaccurate, unsupported or incomplete for the four performance
Needed for            indicators tested (Table 3). These data errors indicated a lack of
Accurate              management controls over data accuracy. In addition, narrative
Reporting             information in the report lacked sufficient disclosure or was
                      incorrect.

                      Accurate data and information will improve program
                      accountability of managers and allow Congress and OMB to better
                      evaluate DOI’s performance. The data problems were the result of
                      limited data verification at all levels of the organization and
                      insufficient procedures to collect and maintain supporting
                      documentation for GPRA performance data. In January 2003,
                      DOI distributed guidance to all bureaus and offices designed to
                      improve and/or establish data validation and verification
                      processes.

                                    Table 3 - Accuracy of Performance Data
                                                                 Problems Identified
                        Performance Indicator                                    Narrative
                                                             Data
                                                                                Information
                      1. Acres of mined lands,       Inaccurate,           Insufficient
                      refuges, park lands, and       incomplete and        disclosure.
                      forests restored (FWS and      unsupported.
                      NPS).
                      7. Acres treated to restore    Inaccurate and        Insufficient
                      natural processes (BIA, BLM,   unsupported.          disclosure.
                      FWS, NPS).
                      12. Number of historic         Incomplete and        Insufficient disclosure
                      structures in good condition   unsupported.          and incorrect
                      (NPS).                                               information.
                      13. Number of cultural         Incomplete.           Insufficient disclosure
                      landscapes in good condition                         and incorrect
                      (NPS).                                               information.

Basis for             To determine the accuracy of data and information reported for the
Determining           four performance indicators, we assessed whether:
Accurate Indicators
                          ¾ The data reported the correct accomplishment amount and
                            included all bureaus with activities related to the
                            indicators.
                          ¾ The data was consistently defined, reported, and verified
                            by all levels and locations.
                          ¾ The GPRA Report narrative and tables accurately and
                            sufficiently described the data.
                          ¾ The data was supported by evidence and accurately
                            collected and reported by organizations.

                                          10
Public Lands                     Our review of a sample of the acres reported by FWS and NPS as
Restored                         restored found inaccurate and unsupported data by both bureaus.
                                 In addition, total DOI acreage is inaccurate and incomplete
                                 because it excludes any BLM and BOR restoration efforts and
                                 includes BIA acreage that should have been omitted.

                                 Fish and Wildlife Service. In fiscal year 2001, FWS reported
                                 86,030 acres restored on refuge lands and 19,571 acres through 10
                                 North American Wetland Conservation Act (NAWCA) grant
                                 projects. We found that of 12,291 acres reported by FWS for
                                 seven refuges in our sample, 5,268 acres were misstated because
                                 two refuges reported incorrect data.6 In addition, we identified
                                 1,769 enhanced NAWCA acres that should not have been included
                                 in acres restored.7 We could not determine how much of an
                                 additional 3,243 NAWCA acres were misclassified as restored
                                 because FWS did not separate enhanced acres from restored acres
                                 for three projects.

                                 National Park Service. NPS reported 7,500 acres restored in fiscal
                                 year 2001. However, we found that the 5,878 acres reported by
                                 NPS for eight parks in our sample was misstated by 2,328 acres
                                 because four of the parks reported incorrect data. These errors
                                 were the result of reporting the incorrect activity (300 acres),
                                 miscalculations (1,729 acres), and reporting prior year
                                 accomplishments (299 acres).

                                 We also identified an inconsistency that allowed some NPS sites to
                                 report natural restoration as an accomplishment. One of the
                                 national parks we visited counted 1,700 acres of land restored
                                 (22.7 percent of the NPS total) by prohibiting vehicular access and
                                 allowing the land to naturally restore itself.8 We believe NPS
                                 guidance defining restoration leaves room for interpretation and
                                 needs to be clarified.

                                 Other Bureaus. Total DOI restoration acreage is also incomplete
                                 and inaccurate because BLM and BOR restoration efforts were
                                 excluded, and BIA acreage should have been omitted. We noted
                                 that although the BLM and BOR GPRA Reports included
                                 restoration goals, they did not collect similar data. BLM did not
                                 present data in acres and BOR mixed restoration acreage with
                                 other activities, such as habitat protection and enhancement. In

6
  Staff at one refuge agreed that they should have reported 2,693 acres instead of 8,000. The other refuge had
project documentation for an additional unreported 39 acres.
7
  FWS distinguishes between habitat management and enhancement and habitat restoration actions. Habitat
management and enhancement includes activities such as water level management, grazing, haying, farming, forest
management, and invasive plant control.
8
  The Park reported 1,700 acres, or 1 percent, of the total 170,000-acre project.

                                                      11
                      addition, the 50,600 acres reported by BIA (28.5 percent of DOI’s
                      total) should not have been included under this goal because BIA
                      was preparing forest lands for commercial harvesting and not
                      performing restoration.

Natural Processes     Our review of DOI fuel treatment projects at 14 locations
Restored Through      identified several inaccuracies in the total number of acres reported
                      in fiscal year 2001. During that year, the Department reported
Fire Management
                      728,000 acres treated by four bureaus (BIA, BLM, FWS, and
                      NPS) for this performance measure. Fuels are removed or
                      modified to reduce the potential for wildfires, lessen post-fire
                      damage, and limit the spread and proliferation of invasive species
                      and diseases. Methods used include prescribed fire, mechanical
                      activities (cutting), herbicides, biological treatments, or
                      combinations of these methods.

                      The data problems we identified included reporting projects twice
                      (1,827 acres by FWS), not reporting eligible acres (2,603 acres by
                      BLM and FWS), lack of support for accomplishments (113 acres
                      by BLM and NPS), and discrepancies between national, state,
                      regional, and field location project information (9,319 acres by
                      BIA, FWS, and NPS). BLM, FWS, and NPS offices at various
                      levels could not provide an accurate listing by project of acres
                      receiving fuels treatment that matched the acreage reported to DOI
                      for inclusion in the 2001 GPRA Report. Without a listing by
                      project, data verification is difficult to perform. Another impact
                      on data accuracy is that the bureaus and their field locations are
                      not using the same criteria for calculating burned acres and for
                      reporting multiple treatment of the same acreage. Overall, the
                      errors indicated a lack of control over data accuracy.

Cultural Properties   Our review of cultural properties included performance indicators
Restored              for NPS historic structures and cultural landscapes. We found
                      NPS did not have sufficient documentation to support the GPRA
                      performance data for historic structures, and we could not
                      determine if condition assessments were performed timely. Also,
                      DOI’s reported accomplishments were incomplete because the
                      cultural properties data did not include the historic structures and
                      cultural landscapes of BLM, FWS, BOR, and BIA.

                      Historic Structures. We could not verify the accuracy of the data
                      reported for the condition of NPS historic structures because hard
                      copies of condition assessments were not maintained once the data
                      was entered into the national List of Classified Structures (LCS).
                      In addition, data in the LCS and the Performance Management
                      Data System (PMDS), which should theoretically be the same, did
                      not match.


                                         12
                                 Our interpretation of NPS technical guidance is that the number
                                 and condition of historic structures in the LCS, certified PMDS,
                                 and uncertified PMDS should agree. However, Table 4 below
                                 shows the discrepancies between the total number of structures and
                                 the condition of structures in 2001 in the three sources of historic
                                 structure data.9 The discrepancies between condition data for
                                 individual parks and regions and the LCS data were even higher,
                                 in some cases. We believe it is important that parks and the
                                 national program office agree on the number and condition of
                                 historic structures to ensure that all resources under park
                                 management are accounted for and protected.

                                                   Table 4 - NPS Historic Structures Data
                                                          LCS               PMDS Certified          PMDS Uncertified
                                                    Total     Good         Total      Good          Total     Good
                                 Region
                                                 Structures Condition   Structures Condition     Structures Condition
                                 Alaska                 610       139          597         147          611         144
                                 Intermountain        6,464     2,588        6,397       2,559        6,379       2,650
                                 Midwest              2,213       971        2,440       1,066        1,773         722
                                 Nat’l Capitol        3,071     1,104        3,104       1,261        3,113       1,085
                                 Northeast            5,277     2,425        5,330       2,515        5,266       2,693
                                 Pacific West         4,976     1,906        5,114       1,894        4,287       1,161
                                 Southeast            3,622     2,402        3,597       2,383        3,078       2,204
                                 Total               26,233    11,535       26,579      11,825       24,507     10,659


                                 Also, we could not determine if the condition assessments for
                                 historic structures were current. In 1999, a data field was added to
                                 the LCS for the date of the last condition assessment. To populate
                                 this data field, NPS staff sometimes used the year the record was
                                 last edited. As a result, the actual date of the last condition
                                 assessment may be older than the date in the LCS, the condition of
                                 some structures may have changed, and the LCS data may no
                                 longer be reliable.

                                 The Department’s response to the draft report stated that NPS has
                                 taken steps to resolve discrepancies between LCS and PMDS data.
                                 To address conflicting requirements, NPS has established a
                                 separate database for tracking National Historic Preservation
                                 Section 110 structures that are not part of GPRA requirements.

                                 Other Bureaus. The total number and condition of cultural
                                 properties reported by DOI in 2001 are also incomplete because
                                 historic structures and cultural landscapes for BLM, BIA, BOR,
                                 and FWS were not included in the data. As discussed in the
                                 measure appropriateness section, these other bureaus have a
                                 significant number of cultural properties under their management.



9
 The LCS is maintained by the national program office and should be the source of certified PMDS data. National
parks also report the number and condition of their historic structures into the PMDS as uncertified data.

                                                        13
Report Narrative                    In addition to performance result data, the performance report
                                    includes narrative information for each of the performance
                                    measures10 related to objectives, background information,
                                    baselines, data verification and validation, and data sources and
                                    limitations. We found inaccurate and incomplete information in
                                    the narrative for the four indicators. Specifically:

                                        ¾ The total DOI effort needed to restore all lands from
                                          previous uses was not disclosed. Also, land restoration
                                          performance data was not verified and statistical analysis
                                          and random sampling were not performed.
                                        ¾ The fuel treatment indicator did not contain data on the
                                          total acreage needing treatment.
                                        ¾ The historical structures indicator did not disclose the
                                          baseline and data verification process.
                                        ¾ The cultural landscapes indicator did not disclose in the
                                          DOI narrative that this indicator only measured landscapes
                                          that had received condition assessments.11 Using the total
                                          number of landscapes would decrease the accomplishment
                                          from 31 percent to 5 percent in good condition. The DOI
                                          response indicated that this calculation has been corrected.

Data Were Not                       Many of the problems with the accuracy of data and related
Systematically                      information in the fiscal year 2001 GPRA Report occurred because
                                    there were no processes in place requiring bureau managers at all
Verified
                                    levels to verify data. DOI GPRA managers stated that they relied
                                    on the bureaus to verify their own data. Headquarters program
                                    managers and some managers at state/regional and field offices
                                    said that they compared targets and accomplishments for
                                    reasonableness, but this is not adequate to ensure that reported data
                                    are accurate. Performance data should be verified from the bottom
                                    up by staff most familiar with day-to-day program activities, but
                                    we determined such verification is not being done.

                                    In addition, in fiscal year 2001, DOI and its bureaus did not have
                                    adequate procedures to accumulate sufficient information to
                                    support the data included in the departmental GPRA Report for
                                    three12 of the four indicators. Field offices should maintain a list
                                    of the accomplishments reported into GPRA, which would allow
                                    state/regional and national offices to match and verify this data.
                                    Managers could use this information to readily identify their
                                    bureaus’ accomplishments for other purposes as well.



10
   There are seven performance measures that include the 13 performance indicators. See Table 1.
11
   The NPS performance report accurately disclosed this information.
12
   Acres of mined land, refuges, park lands, and forests restored; acres treated to restore natural processes; and
number of historic structures in good condition.

                                                          14
New DOI Data          A January 2003 memorandum from DOI’s Assistant Secretary for
Verification Policy   Policy, Management and Budget (PMB) required upper level DOI
                      and bureau managers to ensure that their organizations have proper
                      performance data protocols in place within 90 days. The
                      organizations have discretion in establishing protocols based on
                      guidance provided in the Data Validation and Verification
                      Assessment Matrix attached to the memorandum. The Matrix
                      includes standards and procedures for defining source data,
                      maintaining supporting documentation, and training staff in data
                      collection. It also provides criteria for data entry procedures, data
                      security, defining data limitations, and oversight and certification.
                      The effective implementation of this new policy would address the
                      data accuracy issues raised in this report. In addition, the
                      Department’s new strategic planning process should address
                      concerns over misclassification of performance data and
                      incomplete or inaccurate reporting.

Improving the         DOI needs appropriate goals and indicators and accurate
Usefulness of the     information to achieve the major GPRA objective of helping
                      Congress develop a clearer understanding of achievements in
GPRA Report to
                      relation to expenditures. Congress can then determine whether
Decision Makers       progress is being made and whether the level of performance is
                      sufficient to justify federal resources and effort.

                      Establishing appropriate goals and indicators that focus on mission
                      results is key to the performance management process. DOI’s
                      choice of GPRA indicators should identify its highest program
                      priorities to its own managers and employees, Congress, and
                      OMB. To make DOI’s GPRA Reports more useful to decision
                      makers, indicators should provide a more comprehensive picture
                      of its mission, performance, and results. In addition, accurate,
                      sufficient, timely, and relevant information on program
                      performance would provide DOI with better control over resources
                      used and improve accountability for results by program managers.




                                        15
                        Recommendation

                    We recommend that the Department establish an oversight process
                    to ensure bureaus and offices implement the requirement for data
                    verification set forth in the January 2003 memorandum issued by
                    the Assistant Secretary, PMB.

Agency Response     DOI concurred with this recommendation. The Department’s
                    response and subsequent information provided indicated that
and Office of       GPRA-related performance measures have been incorporated into
Inspector General   senior manager performance development plans to foster greater
Reply               accountability for and investment in performance data, data
                    credibility, and results. We consider this recommendation
                    implemented and no further action is required by the Department




                                     16
                                                                     Appendix 1
                                                                        Page 1 of 1
                Audit Scope and Methodology

Government Auditing   We conducted our audit in accordance with the Government
Standards             Auditing Standards, issued by the Comptroller General of the
                      United States. Accordingly, we included such tests of records
                      and other auditing procedures considered necessary to
                      accomplish our objectives. As part of our audit, we reviewed the
                      Department of the Interior’s Annual Departmental Report on
                      Accountability and the individual bureau reports for fiscal year
                      2001, which include information required by the Federal
                      Managers’ Financial Integrity Act. Based on that review, we
                      determined that none of the weaknesses reported for the
                      Department or bureaus were within the objectives and scope of
                      our review.

Scope and             The scope of our audit included a review of DOI compliance
Methodology           with GPRA and OMB requirements establishing performance
                      goals and indicators, reporting performance accomplishments,
                      and verifying and validating performance data. To accomplish
                      our objectives, we reviewed DOI performance goals, indicators,
                      and accomplishments for fiscal year 2001 and performance plans
                      for fiscal years 2001 and 2002. Our fieldwork was performed
                      from May 2002 through January 2003.




                                      17
This Page Intentionally Left Blank




               18
                                                     Appendix 2
                                                        Page 1 of 2
  Audit Sites Visited

We visited or contacted DOI headquarters offices and five
bureaus--BIA, BLM, BOR, FWS, and NPS. We visited several
regional offices and field offices judgmentally selected
throughout the United States, as identified below.

Sites Visited                                      Location

Department of the Interior:
Office of Planning and Performance Management      Washington, DC
Office of Financial Management                     Washington, DC
Natural Resource Damage Assessment & Restoration   Washington, DC
Program, Office of Wildland Fire Coordination
South Florida Ecosystem Restoration Task Force     Miami, FL

Bureau of Indian Affairs:
Strategic Planning Office, Division of Forestry    Washington, DC
Fire and Aviation Management                       Boise, ID
Northern California Agency & Pacific Regional      Redding, CA
Office
Northwest Regional Office                          Portland, OR

Bureau of Land Management:
Office of Business and Fiscal Resources - Budget   Washington, DC
Office of Fire and Aviation                        Boise, ID
Redding Field Office & California State Office     Redding, CA
Colorado State Office                              Lakewood, CO
Oregon/Washington State Office                     Portland, OR
Salem District Office                              Salem, OR

U.S. Fish and Wildlife Service:
Planning and Evaluation Staff                      Washington, DC
National Wildlife Refuge (NWR) System              Arlington, VA
Division of Bird Habitat Conservation              Arlington, VA
Division of Endangered Species                     Arlington, VA
Fire Management Branch                             Boise, ID

Mountain-Prairie Regional Office                   Denver, CO
   Arapaho NWR, Rocky Mountain Arsenal NWR         Colorado

Pacific Regional Office                            Portland, OR
    Willamette Valley NWR Complex                  Oregon

Southeast Regional Office                          Atlanta, GA
    A.R.M. Loxahatchee NWR, Lake Woodruff          Florida
NWR, South Florida Field Office




                   19
                                                     Appendix 2
                                                        Page 2 of 2

Southwest Region:
    Sacramento NWR Complex                         California
    San Francisco Bay NWR Complex                  California

National Park Service:
Historic Preservation, Recreation & Partnerships   Washington, DC
Park Historic Structures & Cultural Landscapes     Washington, DC
Natural Resource Stewardship & Science             Washington, DC
Office of Strategic Planning                       Denver, CO
Fire Management Program Center                     Boise, ID

Intermountain Regional Office                      Denver, CO
     Rocky Mountain National Park                  Colorado

Pacific West Regional Office                       Oakland, CA
    Whiskeytown-Shasta-Trinity NRA                 California

North East Regional Office                         Philadelphia, PA
    Delaware Water Gap NRA                         Pennsylvania
    Gettysburg National Military Park              Pennsylvania
    Independence National Historic Park            Pennsylvania
    Valley Forge National Historic Park            Pennsylvania

Southeast Regional Office                          Atlanta, GA
    Big Cypress National Preserve                  Florida
    Biscayne National Park,
                                                   Florida
    Everglades National Park

We also contacted additional offices via telephone, e-mail,
and/or facsimile.




                   20
                                                                                       Appendix 3
                                                                                          Page 1 of 2
                                 Prior Audit Coverage

Prior Audit Coverage              The following Office of Inspector General (OIG) and General
                                  Accounting Office (GAO) reports are related to either GPRA
                                  reporting or challenges identified in the program areas we
                                  reviewed.

       GAO-03-104                     ¾ In its January 2003 performance and accountability
                                        report, GAO identified specific performance and
                                        management challenges facing DOI.13 According to
                                        GAO, although DOI has taken steps to better manage the
                                        ecosystem restoration efforts, more work is needed to
                                        address wildfire threats caused by excessive fuels
                                        buildup and to complete actions that will improve the
                                        South Florida ecosystem restoration effort. Additionally,
                                        better data-gathering techniques are needed to accurately
                                        assess the condition of NPS’ cultural properties.

       2002-I-0047                    ¾ In 2002, we reported that BLM needed to improve its
                                        development and reporting on GPRA goals and measures
                                        by revising them to focus on its mission and
                                        performance.14 We also recommended the establishment
                                        of a data verification and validation process to ensure the
                                        accuracy of the GPRA data and the development of
                                        procedures to accumulate information supporting
                                        reported GPRA data.

      GAO-01-872T                     ¾ In June 2001 GAO testified that GPRA is the centerpiece
                                        of a management infrastructure that can provide
                                        information to assist Congress and decision makers
                                        assess what the federal government should do in the 21st
                                        century and how.15 Performance information can help
                                        build a better-equipped government to deliver




13
   Major Management Challenges and Program Risks: Department of the Interior, Report No. GAO-03-104,
January 2003.
14
   Improvements Needed in Developing and Reporting on GPRA Goals and Measures: Reducing Threats to Public
Health, Safety, and Property, OIG Report No. 2002-I-0047.
15
   Managing for Results: Using GPRA to Assist Oversight and Decisionmaking, Report No. GAO-01-872T,
June 19, 2001.

                                                   21
                                                                                         Appendix 3
                                                                                             Page 2 of 2

                                  economical, efficient and effective programs. Among the major
                                  challenges identified were the:

                                               o need for a results orientation,
                                               o assurance that daily operations contribute to
                                                 results, and
                                               o capacity to gather and use performance
                                                 information.

          00-I-533                     ¾ In 2000, we reported on our review of the Department’s
                                         and its bureaus Fiscal Year 1999 Performance Reports
                                         and 2001 Annual Performance Plans.16 Departmentwide
                                         suggestions for improvements in the performance
                                         measures included eliminating or modifying goals that
                                         are not program or function-related, establishing goals
                                         for all significant programs and functions, describing the
                                         method used to establish target levels of
                                         accomplishment, indicating the relevance of performance
                                         measures, and establishing appropriate measures as
                                         performance indicators. Concerning data reliability and
                                         verification we found that the issue of data validation and
                                         verification were not addressed by those bureaus that had
                                         significantly revised their performance plans and had not
                                         established performance baselines. Additionally,
                                         although data collection shortcomings and difficulties
                                         encountered in obtaining reliable data were disclosed,
                                         only FWS described data limitations for each
                                         performance measure.




16
 Review of the Fiscal Year 1999 Performance Reports and Fiscal Year 2001 Performance Plans for the U.S.
Department of the Interior, OIG Report No. 00-I-533, June 2000.

                                                     22
     Appendix 4
      Page 1 of 2




23
     Appendix 4
      Page 2 of 2




24
                                                    Appendix 5
                                                       Page 1 of 1
              Status of Audit Recommendations
Recommendation             Status           Action Required

    1 and 2              Implemented     No further action by the
                                         Department is required.




                              25
This Page Intentionally Left Blank




               26
